No. 20-97
IN THE

MASSACHUSETTS LOBSTERMEN’S ASSOCIATION, ET AL.,
v.

Petitioners,

WILBUR ROSS, SECRETARY OF COMMERCE, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the District of Columbia Circuit
Brief for Intervenor Respondents in Opposition to the Petition for Certiorari
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 8,344 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 4, 2020.

___________________
Ian Fein
Counsel for Natural Resources Defense Council

